<html>
<title> - AFTER PARIS AND COPENHAGEN: RESPONDING TO THE RISING TIDE OF ANTI-SEMITISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




   AFTER PARIS AND COPENHAGEN: RESPONDING TO THE RISING TIDE OF ANTI	
                                SEMITISM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-28

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-914 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                       
                       
                       

                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Ronald S. Lauder, president, World Jewish Congress.     5
Mr. Roger Cukierman, president, Representative Council of Jewish 
  Institutions of France.........................................    13
Mr. Dan Rosenberg Asmussen, president, Danish Jewish Community...    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ronald S. Lauder: Prepared statement...............     8
Mr. Roger Cukierman: Prepared statement..........................    15
Mr. Dan Rosenberg Asmussen: Prepared statement...................    19

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement of the Honorable Eliot L. Engel, a Representative in 
    Congress from the State of New York..........................    40
  Statement of Dr. Zuhdi Jasser..................................    42
  Statement of the Anti-Defamation League........................    45

 
                      AFTER PARIS AND COPENHAGEN:
                    RESPONDING TO THE RISING TIDE
                           OF ANTI-SEMITISM

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:43 p.m., in 
room 2175 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
afternoon and welcome to everyone joining us today. I 
particularly want to welcome our witnesses and Ambassador 
Ronald Lauder, the president of the World Jewish Congress; Mr. 
Roger Cukierman, president of the Representative Council of 
Jewish Institutions of France; and Mr. Dan Asmussen, 
chairperson of the Danish Jewish Community.
    In 1982, during my first term in Congress, I traveled with 
the National Conference on Soviet Jewry to Moscow and 
Leningrad, now St. Petersburg, to meet with Jewish refusniks in 
their homes and to engage Soviet leaders. Mark Levin invited me 
to be on that trip and has been a friend and a mentor ever 
since. For hours on end, Mark and I and a delegation that 
included former Democrat member of this committee, who was a 
ranking member, Sam Gejdenson, heard stories of the Soviets' 
physical and mental abuse, systemic harassment, gulags and 
psychiatric prisons, and an array of similarly wanton and 
brutal acts of anti-Semitism.
    To apply for an exit visa, a universally recognized human 
right, which on paper, at least, the Soviet Union had acceded 
to, was to invite the cruelty and the wrath of the KGB and 
other small minded, morally stunted thugs. To courageously seek 
freedom rendered you ineligible for employment in Lenin's 
farcical workers' paradise. The Soviet system, militantly 
atheistic and morally incoherent, wouldn't let Jews leave, but 
didn't want Jews to stay either, a bizarre paradox.
    To a brand new, 27-year-old Congressman, it was bewildering 
and deeply troubling. Why do they hate Jews? And I pondered 
that question over and over again and why the anti-Semitic 
obsession? Well, sadly, it has not changed and it is getting 
worse.
    This is the ninth hearing I have chaired on combating anti-
Semitism. The first was right after the Republicans took 
control. We put together a hearing called ``The Rising Tide of 
Anti-Semitism.'' And even though the Soviet Union had 
matriculated to Russia, we heard how anti-Semitism had become 
privatized and the government was doing little or nothing to 
mitigate its occurrence. We also heard that it was rising 
everywhere as well.
    However, never in modern times has the need to defend Jews 
everywhere been greater. Our next hearings will be on the 
explosion of anti-Semitic hate on college campuses and Jewish 
community security which increasingly has to be addressed and 
real dollars put in place to lessen that threat as well.
    For the first time since the Holocaust, the physical 
security of Jewish communities in Europe have become a top 
level concern. Our hearing today will examine the horrifying 
state of affairs facing Jewish communities in Europe at this 
time.
    At a congressional hearing that I had in 2002, Dr. Shimon 
Samuels of the Wiesenthal Center in Paris testified and I quote 
him, ``The Holocaust for 30 years after the war acted as a 
protective teflon against blatant anti-Semitic expression, 
especially in Europe.<greek-l>'' `` deg. That teflon,'' he 
said, ``has eroded and what was considered distasteful and 
politically incorrect is becoming simply an opinion. But 
cocktail chatter,'' he went on to say, ``at fine English 
dinners can end as Molotov cocktails against synagogues.''
    That is exactly where we are now, 13 years later. What was 
anti-Semitic cocktail chatter then, has now led to two people 
shot and killed at a synagogue and a Jewish cultural center in 
Copenhagen and four killed in a terrorist attack on a kosher 
supermarket in Paris. These are only the most recent outrages 
in a terrifying increase of extreme anti-Semitic violence. Let 
us not forget the May 2014 murder of four people at the Jewish 
Museum in Brussels and the March 2012 murder of three Jewish 
children and a rabbi at a Jewish school in the French city of 
Toulouse.
    Each of these four attacks was perpetrated by a killer who 
has links to a jihadist movement. For far too long, far too 
many government officials, many of them mired in what Natan 
Sharansky summarized as ``the application of double standards 
and the demonization of Israel'' have reacted weakly to this 
danger. Meanwhile, the threat has grown exponentially.
    Today, at least 3,000, perhaps more than 5,000 EU citizens 
have left to join ISIS in Syria, Iraq, and other conflict 
zones. This is the recent estimates of Europol, the EU's joint 
criminal intelligence body. It would be criminally 
irresponsible not to take this number as a warning of events 
much worse to come and to make every effort to prepare 
accordingly. And of course, that also applies to those who have 
gone to those battlefields from the United States.
    In 2002, in response to what appeared to be a sudden 
frightening spike in anti-Semitism in several countries 
including the U.S., I first proposed the idea of conferences on 
combating anti-Semitism under the auspices of the Organization 
for Security and Co-operation in Europe. Convinced we had an 
escalating crisis on our hands, I teamed with several OSCE 
partners, including Germany and members of the Bundestag, to 
push for action and reform. Many of the people in the NGOs 
present in this room played leading and pivotal roles in that 
effort. Those efforts directly led to the creation of the OSCE 
Chairperson-in-Office's Personal Representative on Combating 
Anti-Semitism, which has been filled with great distinction by 
Rabbi Andy Baker since 2009.
    Rabbi Baker has done outstanding work, dogged and 
energetic. He has been the driver behind everything the OSCE 
has done, has accomplished in fighting anti-Semitism in recent 
years.
    My efforts with partners to put anti-Semitism on the OSCE 
agenda also led to important conferences in Vienna, Berlin, in 
Bucharest, and last fall in Berlin. In each of these, 
participating states have made solemn, tangible commitments to 
put our words into action. In some countries progress indeed 
has been made. Institutions that fight anti-Semitism have been 
created and they have done excellent work. They have also done 
the all-important work of chronicling it. As Sharansky said at 
one of our hearings, ``If you don't chronicle the crime, how 
can you fight it?'' But it has not been enough to reverse the 
new anti-Semitism sweeping Europe and it has failed miserably 
to anticipate and prevent the arrival of jihadist anti-Semitism 
in Europe. That is why we are here today, to review, recommit, 
and reenergize efforts to stop the evil of anti-Semitic 
violence that is threatening the Jewish communities of Europe. 
And again, this is worldwide, but our focus primarily is on 
Europe today.
    We need to learn more about what must be done to ensure 
community security, how the community sees the threats they 
face, what they are doing about them, what the European 
governments are doing about them and how everyone can and must 
do more.
    We can also learn how the U.S. should do more and be more 
effective in this fight. And this is especially in light of 
World Jewish Congress President Lauder's all-important 
question, who will lead off our witnesses, when he says in 
testimony today, ``Where is the United States?'' Ambassador 
Lauder will say, ``Once again, like the 1930s, European Jews 
live in fear. In my travels to all of these communities,'' he 
goes on, ``I am asked the question around Europe and the world. 
Where is the United States? Why isn't the United States leading 
the world in this crisis?''
    I would like to now yield to my good friend and colleague, 
Mr. Mark Meadows, for any comments he might have.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of you 
for being here and also thank you to the 60 or so of you who 
are here from the World Jewish Congress. I noticed that you 
were here because you were arguing with each other on which way 
to get to the hearing room and it is a pleasure to have you 
here.
    Sadly, this is an all too familiar theme and what we have 
heard and I will speak from the heart today because for this 
particular issue, it is a passion for me. It is one that we 
must continue to not only voice and articulate, but do it in a 
way that is persuasive where we can bring the rest of the world 
to an understanding of what happens each and every day. And I 
say each and every day because there are over 550 violent anti-
Semitic crimes that are perpetrated every year. And so when we 
look at that and I am not just talking about slights, I am 
talking about violent incidents, so almost two a day, that are 
being experienced across the country and across the world.
    And when we look at that, to put it in context, we have not 
seen this level since the days of World War II. And when we 
look at that, it is troubling when we can see that kind of 
rhetoric, hostility, and truly a hatred that continues to come 
out and honestly be justified because of some action that is 
happening somewhere else. To think that this would be an action 
that could somehow be justified because of a political, 
geopolitical thing that is happening throughout the world is 
inexcusable.
    But I also think that it is critical for us to continue to 
raise the awareness. There is a generation that is coming up 
that do not know from history other than reading in textbooks 
what happened during World War II. It is not personal. The 
Holocaust survivors are truly disappearing at an alarming rate 
just because of age and yet, we are not doing a good job of 
truly educating and informing the generation to come.
    And so my plea to each one of you is as Chairman Smith 
raises this issue in this hearing and the witness testimony 
hopefully will highlight it today, is that I need you to 
redouble your effort in your communities, in your synagogues, 
in the places where you do business, to make sure that this 
message continues to get told to the generations that are 
coming.
    I will close with this. It is a personal story of my wife 
and I on the banks of a river in Budapest and there on the 
banks are some shoes, some bronze shoes. They are a reminder of 
a terrible, terrible thing that happened long ago. And yet, if 
we do not stand firm today, that same tragedy could happen 
again, and in ways is happening again today. And so I look 
forward to the testimony and I join the chairman in an 
unyielding resolve to make sure that we address this particular 
issue. And I thank the chairman.
    Mr. Smith. Mr. Meadows, thank you very much for your 
opening comments and thank you for your leadership. I would 
note for the record that Mr. Meadows is not only one of the 
leaders on religious freedom in general, believing that we all 
need to protect the rights of people of faith to act and 
believe and follow their conscience, but he has been especially 
tenacious on the issue of combating anti-Semitism and I want to 
thank him for that.
    I would like to recognize our distinguished witnesses 
beginning first with Ambassador Ronald Lauder, who has served 
as President of the World Jewish Congress since June 2007 and 
has championed the safety and security of the State of Israel 
in the public arena for many years. From 1983 to 1986, he 
served as Deputy Assistant Secretary of Defense for European 
and NATO Affairs. And in 1986, he was appointed by President 
Ronald Reagan as Ambassador to Austria. He is the former 
chairman of the Conference of Presidents of Major American-
Jewish Organizations and has made the fight against anti-
Semitism a life-long endeavor. He is a man who has truly made a 
difference.
    We will then hear from Mr. Roger Cukierman who was elected 
as President of the Representative Council of Jewish 
Institutions of France in 2001. He was reelected in 2004 and 
again in 2013. He is Vice President of the World Jewish 
Congress and serves as Treasurer of the Foundation for the 
Memory of the Shoah. He is active in many of the social and 
educational institutions of the Jewish community and has made 
the fight against anti-Semitism his main priority, demanding 
French Government action to fight hate crimes, defending the 
safety and security of Jewish schools, houses of worship, and 
urging solidarity with victims of terror.
    We will then hear from Mr. Dan Rosenberg Asmussen who was 
elected as the chairperson of the Danish Jewish Community 
Center in 2014. In his professional career, he is the Deputy 
Director of the Association of Danish Pharmacies. He played an 
important role in the immediate aftermath of the attack at the 
Copenhagen synagogue last month by managing the crisis unit and 
liaisoning with local law enforcement authorities as well as 
political leaders.
    So Ambassador Lauder, if you could begin your statement.

 STATEMENT OF THE HONORABLE RONALD S. LAUDER, PRESIDENT, WORLD 
                        JEWISH CONGRESS

    Ambassador Lauder. Thank you very much, Mr. Chairman. But 
before I start, Mr. Meadows mentioned the shoes along the 
Danube. What had happened in the closing days of World War II, 
as the Russians were surrounding Budapest and they cut off the 
rail lines, they still wanted to kill more Jewish people. They 
took something like 5,000 Jewish people, had them undress, put 
10 and 20 together, roped together with wire and pushed them 
into the Danube and let them drown together, just as a last 
ditch effort to kill people. It was the Arrow Cross that did 
most of it and interestingly enough the Arrow Cross has been 
re-erected in Budapest and it is now an organization there with 
a terrible history. Thank you.
    I would like to thank you personally, Mr. Chairman, for 
your support of every religion, race, gender, and age who live 
in this great country.
    The particular topic today at this particular moment in 
history after Paris and Copenhagen, responding to the rising 
tide of anti-Semitism, is sadly all too timely. It is 
reminiscent of an even darker age that we thought was behind 
us. With your permission, I would like to submit a statement.
    Exactly 70 years ago, as American GIs advanced into Nazi 
Germany in the last days of the most devastating war in 
history, the world had a glimpse of the horror of unbridled 
anti-Semitism. The images of the concentration camps that were 
liberated throughout Europe in the spring of 1945 still cause a 
universal shudder to this day. For the first few decades after 
World War II, we mistakenly, all of us, believed that anti-
Semitism, the age-old hatred of Jews, had finally disappeared 
from Europe and everywhere else. That is because in the 1950s 
and 1960s, no one in their right minds wanted to be associated 
with Nazis. It is because we all saw where this kind of hatred 
leads. And, perhaps, people who still harbored these beliefs 
were too embarrassed to express them openly.
    I now tell you with the greatest sadness that 70 years 
later, the age-old virus of anti-Semitism has returned in all 
its evil and ugliness. Anti-Semitism has returned to streets of 
Paris and Toulouse, to the streets Brussels and Copenhagen. It 
has even returned to Berlin.
    You will hear the personal accounts from my friend, Roger 
Cukierman, the head of the Jewish community in Paris, but 
listen to these frightening facts.
    Jews make up less than 1 percent of the population of 
France, but they were victims of more than half of all the 
racial attacks in that country last year. The number of anti-
Jewish attacks in France in 2014 doubled from the year before. 
In Great Britain, the number of anti-Semitic attacks also 
doubled from the year before. In Austria, again we saw the 
amount of anti-Semitic attacks doubling. In fact, the EU report 
from 9 nations showed that 16 months ago, long before the 
latest wave of terror, Jews in these countries were already 
concerned about growing anti-Semitism. You don't have to be a 
mathematician to see an obvious trend here.
    There is a hatred growing throughout Europe that is causing 
Jews to wonder if they should leave. They are asking if there 
is a future for Jews on that continent.
    Last fall, I sat with representatives of the Jewish 
community in Rome and they told me that although they may stay, 
their children and definitely their grandchildren will leave. 
They told me that the Jewish community in Rome, that has 
existed since the time of Christ and survived Hitler, would 
disappear within 25 years. How could this happen in 2015?
    The answer is that a strange confluence of hatred has taken 
hold across Europe today that comes from many different 
corners. There are huge populations of Muslim immigrants 
throughout Europe. Most are peaceful, but far too many of them 
have adopted radical Islam. There are thousands of young 
European Muslims that have left to fight with Islamic radicals 
in Iraq and Syria, and there is a real fear that they could 
return, bringing the bloodshed with them. Some have already 
returned and we have seen the consequences.
    At the same time, we have seen the rise of smaller right 
wing Neo-Nazi extremist groups that have become political 
forces in Hungary and Greece and have been seen on the streets 
in Germany and France. And there is a third force that may 
appear more benign, but it adds fuel to this fire. I am talking 
about an educated, elitist class, from universities to the 
media, that has a pathological hatred of Israel. They would 
never consider themselves anti-Semitic, but they are quite open 
in their opinion that only Israel is the source of all of the 
problems in the Middle East. This is intellectually dishonest 
and devoid of reality. But too many people have accepted their 
lies as the truth.
    And then there is technology. Seventy years ago, Josef 
Goebbels used newspapers, film, and marches to infuse hatred of 
Jews into mainstream society. Today, the power of the Internet 
sends out a constant stream of anti-Semitic ideas at hyperspeed 
and there are not enough people speaking up to counter these 
lies.
    Do you want to know what it is like to be openly Jewish in 
Europe today? Just go to YouTube and watch what happens when a 
young man simply walks down a European street wearing a 
yarmulke. He is insulted, shoved, spat on, and as we saw in 
France, Jews who are openly Jewish can also be killed.
    Once again, like the 1930s, many European Jews live in 
fear.
    Members of the committee, in my travels to all of the 
communities, I am asked the same question around Europe and the 
world, I have been asked where is the United States? Why isn't 
the United States leading the world in that crisis? Right after 
the attacks on Charlie Hebdo and the kosher grocery store in 
Paris, over 1 million people marched in defiance of those 
murders. Many of the leaders of Europe linked arms in 
solidarity in the very front row. But there was not one U.S. 
representative with them in the front row.
    I believe this sent a very negative message around the 
world. European leaders have stepped up and strongly condemned 
these attacks on Jews and the rise of anti-Semitism. The United 
States must do the same. The United States must lead. When a 
Neo-Nazi party like Jobbik in Hungary or Golden Dawn in Greece 
wins substantial votes in elections, the United States must 
condemn in the strongest possible terms these anti-Semitic 
parties. My fear is that muted condemnations or worse, silence, 
could lead to what we saw in Europe 70 years ago. and that led 
to deaths of 60 million people and the destruction of a 
continent.
    We must insist that European nations better share 
intelligence on anti-Semitic Islamic hate preachers. All 
countries must better monitor radical Islam recruiting in 
prisons, on the Internet, and in mosques. And without question, 
we must closely monitor European and U.S. nationals returning 
from the Middle East and Africa. The United States can and must 
speak loudly and clearly to condemn this evil for what it is, 
the radical Islamic hatred of Jews.
    Mr. Chairman, one of the bravest men in history, Sir 
Winston Churchill, came to Westminster College in Fulton, 
Missouri in 1946 and he warned us that the Soviet takeover of 
Eastern Europe was complete and an Iron Curtain had descended 
across the continent. Churchill was trying to wake up a 
sleeping world because too many people didn't want to believe 
him. We had just fought a war against totalitarianism and we 
were tired. We didn't want to fight another one.
    Well, today, it is not an Iron Curtain that is descending 
across Eastern Europe. It is a white-hot fire and its reach is 
much greater. This new, incandescent flame is scorching the 
entire Middle East from Tehran, across Iraq, and through Syria, 
Lebanon, Gaza, and now Yemen. It stretches across parts of 
North Africa. It destroys everything in its path and leaves 
nothing alive, not Jews, not Christians and not Muslims who 
don't share their exact beliefs.
    Unless we act now, the flame of radical Islam could stretch 
across all of Europe as well. After Churchill's speech in 
Missouri, it took 44 years and billions of dollars to defeat 
Soviet Communism. We were focused back then, we were committed, 
we were united with our allies, and we were able to win the 
Cold War without horrific bloodshed.
    But in order to defeat this new flame of radical Islamic 
terror and survive, the United States must lead. I fear that if 
we do not stand up to this new foe immediately, it will take us 
much longer than 44 years to defeat it. I fear it will cost us 
much more of our treasure and, most tragically of all, I fear 
it will consume many, many more lives, not just in the Middle 
East and Europe, but here as well.
    Members of the committee, we must not let this happen 
again. Thank you.
    [The prepared statement of Ambassador Lauder follows:]
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ambassador Lauder, thank you very much for your 
very powerful and sobering comments to the subcommittee and by 
extension to the Congress and to the American people, thank 
you.
    I would like to now recognize Mr. Roger Cukierman.

  STATEMENT OF MR. ROGER CUKIERMAN, PRESIDENT, REPRESENTATIVE 
            COUNCIL OF JEWISH INSTITUTIONS OF FRANCE

    Mr. Cukierman. Mr. Chairman, members of the committee, 
thank you for the opportunity to appear before this 
subcommittee.
    Jews have lived in France for the last 2,000 years. One 
thousand years ago, at the time of the crusades, the famous 
Talmudist Rachi was living in the city of Troyes. He was 
producing wine, a typical French job, and he was also famous 
for his expertise in old French language. More than 200 years 
ago in 1791, at the time of the French Revolution, French Jews 
were given full French citizenship. Today, we are \1/2\ million 
Jews in France, less than 1 percent of the French population. 
And the CRIF which I chair is the roof body of French Jewish 
institutions. It is comparable to the President's Conference of 
Major Jewish Institutions.
    Today, in 2015, our synagogues and our Jewish schools have 
to be protected by the police and even by the army with machine 
guns. Why is that so? Because there is a World War started by 
Middle Age barbarian fanatics who are cutting heads, are 
stoning women, are killing kids, and want to impose to the rest 
of the world the Sharia, their concept of what Islam should be 
in their views.
    The first victims are the moderate Muslims. This is a war 
against Western modern civilization. And the Jews are seen by 
these jihadists as a privileged target. We Jews are the 
sentinels at the forefront of this war. But we are not the only 
victims. Military forces, policemen and women, and journalists 
are also targeted and killed. These jihadists are acting under 
different names: Daesh, ISIS, al-Qaeda, Boko Haram, AQIM, 
Hamas. It started in the Middle East: Syria, Iraq, Yemen, and 
Gaza. It reaches Africa: Mali, Niger, Nigeria, Cameroon, Chad, 
and Tunisia and now it is in Europe: France, Belgium, and 
Denmark.
    In France, small children were killed in March 2012 in 
Toulouse, at point-blank at the entrance of a school by Mohamed 
Merah. In 2014, four people were killed in the Jewish Museum of 
Brussels by Mehdi Nemouche. And then in January 2015, four 
people were killed in the Paris kosher grocery store, and then 
in front of the Copenhagen Synagogue. All victims were targeted 
because they were Jews. All these killers were jihadists.
    In front of that situation the French Government shows a 
perfect understanding of our situation. Prime Minister Manuel 
Valls said that anti-Zionism is anti-Semitism. And President 
Hollande said that ``it is not the Jews who should leave the 
country, it is the anti-Semites.'' And immediately after the 
grocery attack, the government added close to 8,000 military to 
the police forces to protect the Jewish places.
    From where are these jihadists coming? They come from the 
Muslim community which is estimated in France around 10 percent 
of the total French population. And the French jihadists is 
estimated at 1,300 people who are presently combating in Syria 
and Iraq. And among them many French ethnics recently converted 
to Islam.
    It seems that they are generally not influenced by the 
French imams, not influenced by the press which they don't 
read, nor by the TV that they don't watch. They were educated 
to the jihad in the French jails and by Internet.
    This is why the CRIF, our organization, bought a full page 
ad in the New York Times on March 2, 2015, which was an appeal 
to our American friends and also to you asking that they should 
put pressure on the Internet providers to set a limit to the 
swarm of hate which can be found on Internet, to remove anti-
Semitic contents as soon as it is flagged. On the Internet ways 
were found to ban child pornography. Likewise anti-Semitism 
must be banned. The providers of Internet must understand that 
they bear a responsibility when murders are committed by 
youngsters who became jihadists through Internet.
    Now the question that I am asked daily is whether there a 
future for Jews in France?
    An increasing number of French Jews are considering leaving 
France. The French Jewish population which is estimated at \1/
2\ million people, is the third largest Jewish community in the 
world after Israel and the U.S. In the last 3 years, 12,000 
French citizens left to Israel. Others chose the U.S., Canada, 
or Australia. Many people refuse to see the future of their 
kids if they have to study in schools or to go to synagogues 
which appear as fortresses protected by military and heavy 
machine guns. The atmosphere is tense. One cannot travel in the 
subway with a yarmulke. Anti-Semitism is active in many suburbs 
and in many public schools.
    Nevertheless, I believe that a big proportion of the French 
Jews will remain in France where their roots and their culture 
incite them to confront adversity as their parents or ancestors 
did at difficult periods like the Dreyfus Affair or the Vichy 
period.
    Thank you and I am, of course, ready to answer any 
questions.
    [The prepared statement of Mr. Cukierman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Cukierman, thank you very much for your 
insights and counsel and your historical perspective which is 
very, very illuminating. We look forward to questions when we 
get to that point.
    I would like to now ask Mr. Asmussen, if you would proceed.

  STATEMENT OF MR. DAN ROSENBERG ASMUSSEN, PRESIDENT, DANISH 
                        JEWISH COMMUNITY

    Mr. Asmussen. Dear Mr. Chairman, dear Members of Congress. 
It is a great honor for me to testify before the United States 
Congress, although it is on a sad occasion.
    You probably think of Denmark as a small and peaceful 
country. And it is basically also the way we think ourselves. 
We are people of 5.5 million, 5,000 Jews.
    Only 2 years ago, October 2013, the Danish society 
celebrated the 70 years commemoration of the saving of the 
Danish Jewry from the Nazi onslaught. It was an amazing 
achievement of the Danish society to stand up, come together 
and to save its Jewish minority. The Danish population believed 
that its Jewish neighbors and friends were an integral of the 
Danish society, making Denmark a country that could rightfully 
be defined as righteous among the nations.
    On February 15th this year, the Danish society once again 
came together. This time in order to mourn the loss of Dan 
Uzan, a 37-year-old Jewish man, who was murdered while 
protecting the guests at a Bat Mitzah party in the Jewish 
Community Center. Thousands of Danes came together in order to 
speak out against terror.
    While the community was in shock and despair, Danes showed 
again how much they care for their Jewish citizens. In the days 
following the attack, thousands of people showed their respect. 
They laid flowers in front of Copenhagen's synagogue.
    So on February 15, the Jewish community and the whole 
Danish society was brutally awoken to a new reality. We had 
warned the authorities for years that such an attack like that 
could happen on Danish soil. We had urged them to take warning 
signs seriously, while we, the Jewish community in parallel, 
took it upon ourselves to safeguard our community.
    The terror attack against the Jewish community in Denmark 
did not occur in a vacuum. It did not happen in Copenhagen just 
by chance. It was, unfortunately, the culmination of years of 
growing anti-Semitism. It happened in a country where it has 
become widely acceptable to criticize and question both Israel 
and Jews with a carelessness that we did not expect or imagine 
just a few years ago.
    During the Gaza conflict last summer, a few hundred people 
were evacuated by police because police could not guarantee 
their safety due to aggression from Hamas supporters during a 
demonstration calling for peace, calling for a two-state 
solution.
    A few days earlier, almost 4,000 people signed a petition 
urging Danish media not to use journalists with Jewish heritage 
for coverage of Middle East conflict. Yet, it was not before 
the Jewish school in Copenhagen was vandalized with graffiti 
that politicians decided to react and speak out against these 
incidents.
    It is, however, important to understand that the Danish 
society itself has never been anti-Semitic and that many of the 
threats facing Danish Jewry, like in the rest of Europe, come 
from marginalized and radicalized Muslims, and these form, I 
believe, a small minority of all Muslims in Denmark.
    The terrorist who committed the two murders was born and 
raised in Denmark and used his religion to justify the crime. 
Unfortunately, it doesn't seem that he is alone with this view. 
That was demonstrated when more than 700 people participated in 
his funeral cheering at him.
    At this point, four people are jailed, accused of helping 
him.
    On the other end of the spectrum, we have witnessed how 
Muslim organizations spoke out against hatred and prejudice 
against a fellow citizen. We truly appreciate that expression 
of support and we welcome any such initiatives. It is important 
for me to emphasize that we have good relations with moderate 
Muslim organizations. We work together on issues of common 
religious rights.
    However, we still need for the Muslim community to do more, 
to become more outspoken against violence and hatred, to 
confront hate and prejudices toward Jews.
    Danish society can only do so much. The real long-term 
solution needs to be found inside the Muslim community, and we 
need them to take more responsibility in speaking out against 
anti-Semitism and against terror committed in the name of their 
religion.
    In recent weeks, the Jewish community received strong 
support from the Danish politicians through the media. We 
believe it served as a wake-up call and we expect that our 
problems will now be taken more seriously than in the past.
    Last week, Ira Forman visited Copenhagen. Ira Forman is a 
Special Envoy to Monitor and Combat Anti-Semitism. He made it 
clear to us that the Danish Government in his opinion is not 
doing enough compared with the European countries to combat 
anti-Semitism. And he said that it could never be justified 
that the Jewish community, or any other minority group for that 
matter, should have to prioritize security over education or 
ultimately prioritize security over the future of the 
community.
    Mr. Forman is right. If we spend all our resources on 
security, our children won't have a future. Yet, if we fail to 
protect our children, Danish Jewry won't have a future either. 
The parents simply won't send them to the Jewish school.
    We need at this point a long-term governmental plan that 
will keep our community safe as much as possible. The Justice 
Department has said that such a plan is in the making. And we 
need the Muslim community to speak out and help in building a 
democratic, tolerant, and peaceful society. This is the only 
viable and long-term solution, so we one day will not need to 
risk the lives of our children in order for them to protect the 
community as Dan Uzan did.
    I feel truly grateful toward the Danish society for 
standing up for the Jewish minority in these difficult times. I 
just wish they had done so when we asked for help after the 
incidents in Toulouse and Brussels.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Asmussen follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Asmussen, for your 
statement and insights. We have been joined by some members who 
weren't here during opening statements so before going to 
questions, I would like to briefly ask if they would like to 
give an opening, beginning with David Cicilline who is the 
acting ranking member.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
for your leadership and for calling today's hearing on 
responding to the rising tide of anti-Semitism, to give us an 
opportunity examine in depth, the alarming increase in anti-
Semitic incidents in Europe and begin to discuss what 
approaches should be used to temper this extremism that is 
unprecedented since the end of World War II.
    I would also like to thank our very distinguished witnesses 
for being here today. Thank you for sharing your assessment of 
what the current status of anti-Semitism is in Europe and what 
specific trends you are seeing and what should be done to 
combat it and how we in Congress can assist.
    The rise of anti-Semitism and related hate crimes in recent 
months is beyond debate. While many were awakened to this 
reality in January when four Jewish customers were killed in a 
kosher market in Paris, days after the attack on the satirical 
magazine, Charlie Hebdo, that left 12 people dead, anti-
Semitism has been on the rise since the early 2000s. The United 
Kingdom last year, for example, recorded the highest number of 
anti-Semitic incidents with the London police reporting an 
increase of 120 percent in anti-Semitic crimes in 2014. Most 
alarming perhaps are recent statistics from the Anti-Defamation 
League that show that an average of 24 percent of those 
surveyed in Western European countries harbor some degree of 
anti-Semitic sentiment with that number jumping much higher in 
countries like Greece and France.
    Furthermore, 66 percent of Jewish respondents indicated 
that anti-Semitism was a major problem in their respective 
countries. In response to the tragic attack in Denmark where 
two individuals were murdered at a synagogue in February, the 
Israeli Prime Minister stated, ``We are preparing and calling 
for the absorption of mass immigration from Europe. To the Jews 
of Europe and to the Jews of the world I say that Israel is 
waiting for you with open arms.''
    The Chief Rabbi of Copenhagen, however, responded, ``We 
will not let terror dictate our lives. We will not. We will 
continue living as Jews here in Denmark and everywhere else in 
the world.''
    The environment that is increasingly conductive to anti-
Semite must be dealt with head on and immediately stopped. The 
United States has the largest Jewish population in the world 
and Jews have contributed greatly to all aspects of our 
society. Therefore, we have a personal stake in protecting 
communities as integral to the fabric of the United States. We 
need to work together with our European allies to combat anti-
Semitism with the same vigor that we have with respect to 
protecting communities and to combating terrorism and ensuring 
peace and security around the world.
    I look forward to working with my congressional colleagues, 
our European counterparts and the Jewish community all over the 
world to develop effective strategies to combat the rise of 
anti-Semitism in Europe and to work to ensure that this hatred 
is stopped in its tracks.
    I thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Cicilline. Mr. Clawson.
    Mr. Clawson. Thank you for coming today and sharing your 
personal stories.
    Mr. Asmussen, I remember the sadness in my father's eyes 
when the murders took place in Denmark. Clawson is Danish. My 
forefathers come from about an hour south of Copenhagen in 
Borse in Zealand. My dad has taken me there. My father speaks 
Danish. And so it hit home to us personally and I will always 
remember his face when it happened. And he has told me he was 
glad his father wasn't here. So your words hit home and if 
there is anything that I can ever do, and I am sure my 
colleagues can ever do, to influence this in a positive way I 
am innately motivated to do so and see the innate unjustness of 
what is going on with the Jewish community in Europe.
    I think of your question or your comment that the solution 
must come from within the Muslim community. That feels hopeful 
to me, but it also feels like we have to prepare for the fact 
that that might not happen. And if so, my question for the 
three of you then becomes what do we do next? What do we do 
now? Thank you.
    Mr. Smith. Thank you very much. Mr. Emmer?
    Mr. Emmer. Well, I echo my colleagues' comments. I want to 
thank the chair for holding this important hearing and I just 
want to thank everyone, not only the witnesses, but everyone 
else who understands the importance of this issue and has taken 
time to be here today.
    It is amazing how this place works. Things are planned all 
at the same time and typically the same committees, but that 
shouldn't be taken as we don't think this is important. This is 
of paramount importance. So my apologies for coming in late. My 
thanks to the chair for having this important hearing and for 
all of you being here. And let us say the discussion and the 
testimony and the issue needs to be at the forefront and we 
need to keep raising it so people understand they can't just 
ignore it. You need to call things what they are and you need 
to address them when they occur.
    So again, thank you, Mr. Chair, and thank you to the 
witnesses.
    Mr. Smith. Mr. Emmer, thank you so very much as well. Let 
me begin the questioning if I could. At our hearing in February 
2013, Zuhdi Jasser who is the President of the American Islamic 
Forum for Democracy and a very outspoken man in the combating 
of anti-Semitism made a very, very important insight, provided 
the committee a very important insight when he said, ``The link 
between Islamism and anti-Semitism is rather simple. It is 
self-evident that supremacists from within a particular faith 
community will create and exploit hatred toward another faith 
community in order to collectively rally their own followers 
against a common enemy.'' And then he went on to explain how 
this crowds out a more moderate Muslim view. And he said, 
``These theo-fascists use the demonization of minorities as a 
populist tool to rally populations to their fanaticism.'' He 
went on in great depth and I will put part of this back into 
the record because I think it is so insightful that this is how 
they push out people--the Sadats of this world--who reach 
across and they divide and try to offer a common ground with 
Jews and with the State of Israel. And I am wondering what your 
thoughts might be on that because it seems as if the extremists 
win when there is not a counter force equal or greater to that 
effort.
    Secondly, Mr. Asmussen, you mentioned Ira Forman. I would 
note for the record that in 2004, I sponsored the amendment 
that created that his office and position; very insightful at 
the time. Senator Voinovich had a bill that I sponsored on the 
House side. His bill passed, came over to the House. And I 
worked very closely with members on the other side of the 
aisle. We had a bipartisan effort to create an office that 
doesn't just do one report, but makes it permanent time and 
time again to do reports to monitor anti-Semitism and to create 
this position to work within the State Department as well. And 
I would appreciate your thoughts on how well you think that 
office might be doing. But at the time, 2004, Colin Powell, who 
was then Secretary of State, wrote a letter against the office, 
against the amendment. He thought the Human Rights bureau could 
handle the law. It was reminiscent of what Bill Clinton did 
when I offered the Trafficking Victims Protection Act, and it 
became law. He did sign it eventually, but the State Department 
sent over a letter saying, the Assistant Secretary for 
Democracy, Human Rights, and Labor, that they will just absorb 
all of this into the Human Rights Report and just do a little 
more reporting on it, but don't create a lane where this will 
be looked at for what it is.
    Similarly, when we were working with the coalition and I 
formed it, of the willing, in the OSCE Parliamentary Assembly, 
I was shocked at how many members of Parliament said why don't 
we just expand it to everything. Now I do believe we need to 
combat anti-Christian beliefs and all the others. I have had 
hearings on it. What is happening, I know, Mr. Ambassador, you 
have spoken out very forcibly on that, but there is a specific 
sense of disproportionality to how Jews are singled out. Look 
at our own FBI statistics on hate crimes relative to belief, of 
faith. Christians far outnumber all other in the country, yet 
less than 10 percent of the FBI hate crimes are committed 
against Christians. Ditto for Muslims in this country. Not so 
for Jews who are the victims of over 60 percent of all the hate 
crimes, even though they are only 2 percent of the population.
    It is so disproportionate. It cries out for a single focus. 
And even as we were doing the conferences, there is always this 
move by the Dutch and by others to just make it xenophobia, 
about other issues, always to exclude and in my opinion, reduce 
in its focus the issue of combating anti-Semitism. So your 
thoughts how Mr. Forman and how well you think that office is 
working.
    I have other questions, but I want to make sure my 
colleagues get time to ask as well. So please, if you could 
begin.
    Mr. Asmussen. I believe, Congressman, Mr. Clawson asked me 
a question. I understand fully your skepticism toward getting 
the collective Muslim community in order to confront hate and 
prejudice. I understand it because what we see in Denmark and I 
talked to many Jewish leaders and it is the same all over. The 
Muslim community tends to be very fractured. You will never 
tend to find a body as we do within the Jewish community.
    And I believe if we find racism and hate in Jewish 
community, we will confront it. The problem is it doesn't 
happen that often, but I see some changes. I mean sometimes you 
have to also look at the positive notes. And there are a few 
positive notes, mostly organizations, coming up with ideas like 
peace rings about synagogues. There are not many Muslims 
participating in these initiatives and I would not like to 
exaggerate. But there is a change.
    So when you ask what is done now, there is a lot of things 
in Denmark being done by the government. After Paris, there was 
a huge catalogue of anti-terror legislation being rolled out. 
It seems like the murderer, he was known to the system. I mean 
he was--many people had reported him to the police intelligence 
again and again. He was released from jail 3 weeks before he 
killed. He went to authorities to get help getting a flat. No 
one did anything.
    So there are a lot of things the community can do. You can 
do many things to spot radical behavior earlier. But also you 
can also do a lot and we are working on that in Denmark right 
now in order to spot and help people. But on the long term, 
nothing will change unless the mentality changes. If it is 
legitimate for religious leaders to teach hatred toward Jews, 
nothing will change. And we have cases in Denmark that imams 
have been doing exactly that and it takes a lot of time for the 
system to come down on them. So they keep on doing these 
things.
    We are having organizations speaking intensely on hatred 
toward Jews, but it is very hard to outlaw them, according to 
Danish legislation. We are looking into it, but in my opinion 
in the long-term, the solution has to come from within.
    Ambassador Lauder. Mr. Chairman and members of the 
subcommittee, we are talking about Europe. Anti-Semitism is 
alive and well in this country. Starting off, it is taught. 
Children are born without hate. They are taught hate. It is 
most prevalent in universities, campuses. We have an 
organization called Caravan for Democracy which the Jewish 
National Fund does. We go on campuses all over. The amount of 
anti-Israel which morphs into anti-Jewish is happening all 
over. It is happening because there is an organized group 
putting money into these things to put pressure on Israel, but 
it goes into anti-Jewish also.
    The media is guilty, very guilty. I watched CNN during the 
Gaza War. Ninety-five percent of it showed people in Gaza being 
killed. There was almost no coverage of the 4,000 rockets going 
to Israel. We watch it and it has an effect. And anti-Semitism 
is also learned at the dinner table. When a mother and father 
are sitting there and they watch television and they watch what 
happens and they see reporting that is so biased and they say 
to each other, look at those Jews what they are doing to 
people, look how they are killing people. Their children hear 
it and they repeat it. And what happened is that there was no 
understanding in media about what can be done.
    We watch, we monitor what is happening on the Internet. It 
is disgusting what we see. And the amount of things that go on, 
and yet, there is no regulation against it. Anti-Semitism is 
going to morph into anti-Christian and anti-Muslim at times. We 
are at the beginning of something that is very, very dangerous, 
not only for Jews in Europe, but Jews throughout the world as 
well as Christians and for that matter, Muslims. We ask 
ourselves why aren't there more Muslim moderates? Because they 
are scared to death. If I was a Muslim and I was a moderate, I 
would be worried for my life because there is a feeling, it is 
not just we will vote and see who is right. There is a whole 
radical thing and it is taking over the country. It is taking 
over what is happening. And in many ways, what is happening in 
Europe is the canary in the mine. And the fact is that what is 
happening there will be happening here very shortly unless we 
react. And I commend the subcommittee for taking this up, but 
look at it not for Europe, not for Denmark, not for France, 
look at it for the world and look at it what is happening on 
our college campuses. There is something there.
    We also see that in mosques the amount of hatred against 
Jews, but also against America there. We have monitored mosques 
and we see what is going on. A mosque is a place that should be 
for love and understanding. Too often, they are places of 
radicalism. We hear this. We know this. We have seen it. But 
the fact is there are no laws against it. There are no laws 
against what you can say and that is the danger. There is no 
law that what you can say on the Internet or media and we see 
it. We are just a small segment here.
    You have 40 countries here. Each one country can sit here 
and testify what is happening here. We speak among ourselves 
and frankly, we feel powerless. I think if I asked every person 
what is the one place we look towards? We look toward the 
United States. We look toward the United States for the help 
and understanding because it is the one country that stands up 
for religious rights in a very strong way. We need the 
Congress. We need your help. We need people, not only this 
subcommittee, but a whole looking at what laws--you mentioned 
about Ira Forman, what went on. Here is one person that you 
tried to get in, you had people fighting it.
    There is a feeling also that people don't want to see this. 
They want to stay away from it. We had a situation in 
California recently where a girl wanted to join an organization 
and because she was Jewish, was part of a Jewish organization, 
she was denied it. There should have been a huge outcry and 
there wasn't.
    And again, Roger Cukierman is fighting a battle. He is 
fighting a battle. The French Government is there, but there is 
very little he can do. If you have 6 million Muslims, even if 1 
percent of them, and using math without a computer, it is still 
60,000 people who could be radical. What do you do about that? 
There are no laws about it.
    Canada has just started to look at different laws that can 
be done. We must have type of things here in this country. It 
must be a chance for everybody to turn around and say this is 
the model. These are what should be done. And we are allowing 
it to happen.
    Mr. Cukierman. Yes, I want to say that anti-Semitism is not 
the problem of the Jews. It is the problem of the society. And 
it is not a European problem. It is a world problem. And we are 
in a war with jihadists. Jihadists are the fanatical Muslims 
and you were the first victims of that phenomenon on 9/11. I 
think 9/11 was the first step of that war. We are in a war and 
somebody asked among you what can you do? First of all, you 
have to realize that you are in a state of war. And secondly, 
you have to react at that state of war. One of the things which 
you can do is to see to it that the Internet stops being a 
school to educate jihadists.
    Mr. Smith. Thank you. Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks for giving 
me an opportunity just to sit in. I have another hearing. I 
appreciate it very much. Thanks for holding the hearing to you 
and Ranking Member Bass and thanks for your leadership on this 
and so many other human rights issues.
    I appreciate the witnesses being here today, for offering 
their testimony. It is very helpful for Members of Congress to 
hear how the growth of anti-Semitism in recent years is viewed 
from a European perspective.
    I will just make a couple of quick observations. We know 
that an overwhelming majority of the world's Jewish population 
lives in the United States and Israel, but in Europe where 
centuriess-old Jewish life was decimated by the Holocaust, the 
Jewish community that remains faces a growing animosity that is 
creating a very real security threat which your testimony here 
is so helpful to highlight. It is not to excuse, as Ambassador 
Lauder pointed out, it is not to excuse our own homegrown anti-
Semitism. It certainly exists. The fact is it made up more than 
50 percent of the religious bias-based hate crimes in 2013, but 
it is informative. It is helpful to hear how countries around 
the world are responding to intimidation tactics, to pressure, 
to deadly attacks on the Jewish populations.
    The world as Ambassador Lauder said and as we have heard 
repeatedly and rightfully and importantly throughout your visit 
the past couple of days, the world has to take action because 
of what the rise of anti-Semitism means not just to the Jewish 
communities in Europe, but because of what the rise of anti-
Semitism means to all countries that allow it to persist, what 
it actually portends for others.
    And so I think we have to take action. I am proud to have 
joined with my colleagues, many of who are on the dais here 
today, the chairman in particular, to form the bipartisan task 
force for combating anti-Semitism, the purpose being we want to 
try to help our peers in Congress to understand the real and 
growing threat posed by anti-Semitism globally to allow Members 
of Congress to interact with the administration and to interact 
with NGOs and partners abroad to devise innovative ways to try 
to address these issues, to curb the threat and to attack it at 
its source.
    And I will just finish, Mr. Chairman, by again highlighting 
that anti-Semitism matters to everyone. It is not just the 
Jews, but to every citizen in the world who values human 
rights. It is a shared threat. It is a threat that we have to 
work together to address what is our common problem.
    And Ambassador Lauder, as you point out, efforts to mask 
anti-Semitism in some sort of anti-Israel rhetoric should be 
exposed for what they are. Ultimately, the threats posed by 
anti-Semitism are a threat, as I said, to all of us more 
broadly.
    Your participation here, Mr. Chairman, your willingness to 
hold this hearing and your commitment to this issue means an 
enormous amount and I am grateful to be able to just stop by 
and participate. Thank you so much. I yield the rest of my 
time.
    Mr. Smith. Mr. Deutch, thank you very much for being here 
and for working in this issue so long and so hard yourself and 
we do have now, we have just revitalized and reconstituted a 
task force on combating anti-Semitism with four Republicans and 
four Democrats as co-chairs. We hope to invite frankly the 
entire House to join us. We have had this before, but I think 
having four co-chairs on each side will further demonstrate the 
significance of this commitment and that we really want to see 
action.
    I do have questions I will ask a little bit later, but I 
would like to yield; we are joined by the gentleman from 
Arizona, Trent Franks, who is the chairman of the Constitution 
Subcommittee for the Judiciary Committee. He has been back and 
forth because he, too, has a markup going on. But he is also 
chairman of the Religious Freedom Caucus. So it is really a 
privilege to welcome him to the subcommittee.
    Mr. Franks. Well, thank you, Mr. Chairman, and thanks to 
the subcommittee here for just allowing me the privilege to sit 
in on this. I am grateful to everyone that is here. I know that 
we have had anti-Semitism in the world for a long time, but it 
does seem like in recent days it has surged and I am incredibly 
discouraged about all of that.
    My biggest fear is that somehow the countries of the world 
would somehow believe that America's commitment to Israel has 
diminished because that is of strategic significance to make it 
clear to the world that America is firmly with Israel and that 
Israel is with America. I am convinced that Israel is as 
important to America as America is to Israel. I know of no 
people on earth that contribute more to the cause of humanity 
than the people of Israel.
    Mr. Chairman, it brings to my mind a quote by Shekh Hassan 
Nasrallah that really, I think, puts it into perspective. This 
is a jihadist that would do everything he could to destroy 
Israel if he could. And he said, ``You know, we have discovered 
how to hit the Jews where they are most vulnerable. The Jews 
love life. So that is what we shall take from them. We will win 
because they love life and we love death.'' Now that is a very 
frightening equation to face an enemy that loves death and is 
willing to embrace death in order to destroy another people 
based on just a bigoted point of view.
    I would suggest to you, Mr. Chairman, that should be reason 
for great concern on the part of all us. The Jewish people have 
demonstrated a history that is unparalleled. when the Holocaust 
was over, if any people in the world had reason to quit, I 
suppose it was them, but instead of being crushed and instead 
of completely giving up, they got their revenge by living. They 
dried their eyes and looked up again and they began to build. 
And they built a community and they built a nation and today 
they are a force in the world for good and today, the Nazis are 
gone and Israel remains.
    And Mr. Chairman, I think we need all be very committed to 
make sure that tomorrow, the jihadists will be gone and Israel 
will remain. I am grateful to you, sir, for this very valuable 
hearing. I think it is important that the world and the people 
of Israel know that some of their rhetoric that has come from 
our administration lately does not reflect the hearts of the 
Congress.
    And with that, sir, I thank you for the opportunity.
    Mr. Smith. Thank you very much, Mr. Franks. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you again to 
our witnesses for your extraordinary testimony. My first 
question is I know there that are some who have observed that 
there is sort of an emergence of this kind of new normal, and 
Ambassador Lauder, you sort of made reference to this in the 
context of anti-Semitism. And that is the blurring of 
distinctions between being anti-Israel and anti-Jewish in which 
anti-Jewish remarks and sentiments are becoming more socially 
acceptable. And so I am wondering whether you think that is 
happening in Europe? What is your assessment of that?
    And following that, one of the things that we are learning 
is that there is--some have written that there is a significant 
under reporting of incidents of anti-Semitism and that, of 
course, hampers our ability to kind of respond to it and help 
encourage people to craft responses to it. Do you think that it 
remains an issue, particularly in Europe and what can we do 
about that? That is my first question and maybe Ambassador 
Lauder, you could start.
    Ambassador Lauder. There is no question that the anti-
Semitism starts as anti-Israel, no question. It is not in 
Europe. It is worldwide. And we hear it. We also have--yes, 
there is under reporting because very often when a child comes 
home from school and has been beaten up because he was Jewish, 
what is the mother going to do? Is she going to call the police 
and report it or she just says, ``Look, tomorrow, don't wear a 
yarmulke or take a different way.'' And the amount of 
unreporting is amazing. But also, I heard a couple of minutes 
ago about anti-Jewish and life and loving life. It is also 
anti-Christian. We look in the Middle East where there used to 
be Jews and the Jews left. Now there is almost no Christians 
left in the Middle East because of what is happening.
    And the thing that we can't keep missing is that what is 
happening to the Jews is going to happen to everybody along the 
way, unless it is stopped. And the concern I have and the 
concern that I am delighted this subcommittee is here, is that 
we must do something more than either appoint somebody or have 
a hearing. We must start to look at what type of laws there 
are, what can be done, can we be a model? Can we stand up in 
the world?
    There is no place like the United States to be able to 
stand up and do it. And countries should know that if they have 
things that are anti-Semitic, they have to pay a price, not 
only from the small Jewish communities, be it Denmark and many 
other countries don't have the strength to fight the 
government. The only chance they have is looking to the United 
States and looking to the United States as the model of where 
it goes.
    I am sorry to be so passionate about it, but to me, what is 
happening in this world?
    Mr. Cukierman. I have an example of anti-Zionism turning to 
anti-Semitism. This summer, the period summer 2014 at the time 
of the Gaza War, there was a demonstration in Paris of 35,000 
people in favor of the Palestinians, mostly Muslims. They 
didn't shout ``Death to Israel.'' They shouted, ``Death to the 
Jews.'' And from that demonstration went out hordes of people 
and they attacked eight synagogues and Jewish shops. What is 
the link if it is not anti-Zionism is anti-Semitism?
    Mr. Asmussen. I agree when you say there is somehow a 
presence of under reporting. Danish Jews basically stopped 
wearing yarmulkes many years ago. They don't dare. If they did, 
there are areas of Copenhagen as Mr. Lauder said, you will not 
be able to go without getting beaten up. So that is for sure 
there is under reporting.
    In Denmark, we see primarily left wingers demonizing 
Israel. This tends to legitimize this hate toward Israel, 
toward Jews that is widespread within the Muslim minority.
    Mr. Cicilline. Could you speak to whether or not there has 
been countries that have been effective in either the EU or the 
EU itself in terms of responding to anti-Semitism that have 
implemented effective strategies? Are any of the countries 
doing it well? Is the Organization for Security and Co-
operation in Europe doing anything? Are there things that the 
EU could be doing that they are not doing?
    We have identified, I think, everyone understands this is a 
serious problem, but is there any----
    Ambassador Lauder. The closest I have heard is what Canada 
is doing and I have not seen yet, but I spoke to the Ambassador 
last night. He told me, the Canadian Ambassador, he told me 
some of the things they are doing. But to this day, they have 
not confronted it. It is fear. And you don't know how to 
confront it. How do you stop teaching of anti-Semitism in 
schools or in different mosques? How do you do it? And the 
question of freedom of speech, is there freedom of speech to be 
able to say in a mosque that the Jews are the bad people in the 
world? What are the laws on that? It is a very, very delicate 
thing. What are the laws on freedom of speech in the media when 
they report things one sided? What is the law in it? And it is 
a very, very dangerous thing. We do have laws now, very, very 
strong laws about segregation, what you can say against Blacks, 
but it is still a very, very difficult situation when it comes 
to Jewish things.
    And also, I kept saying, it is going to come to Christians 
as well as Jews.
    Mr. Cicilline. I hope, Mr. Chairman, that one of the things 
that we can work on and I know the chairman is interested in 
this, because I do think you are right, so much of this has to 
do with education.
    Ambassador Lauder. Absolutely.
    Mr. Cicilline. And you look at kind of the early years, the 
formative years of so many young people. What are they 
learning? What are they being taught about people of different 
religious traditions and different cultures? Because I think as 
you said, Ambassador, this is taught. Nobody is born a bigot 
and nobody is born with this sort of hatred, but what can we do 
in terms of the assistance we provide and the programs that we 
fund to be sure that those resources aren't going to the 
teaching of young people to teach hate.
    I think that we have a particular responsibility to do all 
that we can to promote understanding through good education. 
And I again thank you because I think as all the panelists 
pointed out, this is not only a problem in Europe, this is a 
problem all over the world and as that saying goes they begin 
and speaking against Jews and nobody says anything and they go 
down their groups. And this is about valuing the human life of 
every person and respecting differences and honoring and 
celebrating our diversity.
    Can I ask with the indulgence one last question? Someone 
suggested that the rise of anti-Semitism, particularly in 
Europe, is closely connected to the sort of anti-immigration 
fervor. And I am wondering whether any of the panel have a view 
on that? And if so, what can be done about that?
    Ambassador Lauder. I can't say it is anti-immigration. That 
is a whole different thing. But it has to do very, very much 
with the times we are having. For example, the whole rise of 
Nazism came out of a very difficult financial time in Germany 
and Austria and all Europe for that matter. It gave rise to it.
    We watched after 2008, the amount of anti-Semitism rose 
because once again as it happened for thousands of years, the 
Jews became the scapegoats. They looked at one--there was one 
case in Africa where there were three Jews and they were all 
wealthy. The amount of anti-Semitism in Africa, in that country 
was enormous because people look and say and it goes in 
jealously and what happens. But the fact is you have a 
confluence of bad economic times. You have a confluence of 
radical Islam growing leaps and bounds and you have a question 
of the media being able to feed this very, very much. And you 
have a question of the Palestinian-Israel question going on.
    But I will say also that what happened during the last 2 or 
3 weeks between Israel and the United States has had a marked 
effect on anti-Semitism because when people hear the fight 
between Israel and the United States, whatever it might be, it 
has an effect throughout the world of people saying even the 
best friend of Israel is having problems with them. That gives 
us the license to start talking also more and more negative.
    Mr. Cicilline. Before I yield back, Mr. Chairman, I think 
it is an important opportunity to say that while there might be 
disagreements between individuals or policies, I think it 
should be clear to everyone in the world that the relationship 
between our two countries is unbreakable. It is built on a set 
of shared values that will endure forever and I hope this 
hearing is an opportunity for us--I don't disagree with your 
conclusion.
    Ambassador Lauder. We all know that, but the world outside 
does not know that.
    Mr. Cicilline. I understand. Thank you.
    Mr. Meadows [presiding]. And I thank the gentleman from 
Rhode Island for his passion and his willingness to work on 
this. I would echo what he just indicated. Headlines are 
headlines. Thirty-second sound bites, sixty-second sound bites, 
they sell media, but anybody who is watching this, they need to 
know that it is the foundation, the friendship, truly, the 
support both Democrat and Republican is unyielding and 
unwavering and as much as may be made out of that and running 
that abroad, I think you will find very quickly that there is a 
very unified effort to stand up for this particular cause. So I 
thank the gentleman for bringing it up.
    Ambassador Lauder, I am going to go to you, first, and ask 
a very quick question. Maybe just a series and then recognize 
the gentleman from Minnesota that has a different accent than I 
do, Mr. Emmer.
    Ambassador, one of the issues that you have been driving 
home is that America must lead on this particular issue and 
that when we don't, when we are silent, it has real 
implications in Europe and abroad, is that correct?
    Ambassador Lauder. That is correct.
    Mr. Meadows. So if we are to be more than a hearing and 
more than just words, what is the most powerful way that we can 
show our support for the Jewish people? Because you know, it is 
interesting, Mr. Cukierman is talking about Zion versus being 
Jewish. I have never known anybody that hates a piece of land. 
And you know, when you really look at the Nation of Israel, it 
is really what it embodies that they hate versus really a 
geographical location. So what can we do?
    Ambassador Lauder. We can start talking about it, taking 
action ourselves, standing up, and saying for example, I gave 
the example of France and what happened. There was not one 
person that didn't notice that there was no American presence 
in that front line. And I must tell you that symbolism had a 
major effect on people.
    It is important that we stand up, that we start talking 
about it and say there is no room for it. If there is a neo-
Nazi party in a country, we must stand up and say that is 
unacceptable for that country.
    If we see that there is anti-Semitic direction of a group, 
we must say that is unacceptable. That is not there. And I 
really believe the time is now.
    Mr. Meadows. All right, Mr. Cukierman, how do we balance 
the line between free speech and truly standing up for hatred? 
It is a little known fact, I was born in France, actually, but 
I have been where there has been a number of demonstration, 
pro-Palestinian demonstrations in Paris and so how do we allow 
for this free speech, but yet not the results that may come 
from it?
    Mr. Cukierman. You have the example of pedophilia. The 
providers of Internet were able to fight against pedophilia 
very efficiently. Why don't they do the same for racism and 
anti-Semitism? Why don't they do the same against jihad? If 
they were able to do it for pedophilia, they should be able to 
do it because it is extremely important because today, this is 
the main school of education to the jihad.
    Mr. Meadows. All right, so let me ask you maybe a little 
tougher question that you can weigh in on. The United States 
gives millions of dollars in foreign aid to a number of 
countries, most countries in some shape, form, or fashion. If 
incitement, and that is what I am hearing you talk about, 
really, it is more about incitement against the Jewish people. 
If incitement continues to be epidemic, should there be some 
tie to that foreign aid where we can get the attention? I will 
let you weigh in.
    Mr. Cukierman. I would not interfere into American policy, 
but what I noticed, for instance, is that the imams in France 
are usually paid by foreign countries. Among these foreign 
countries there are some countries who are financing Salafism.
    Mr. Meadows. Right.
    Mr. Cukierman. Other countries are financing Muslim 
Brotherhood. Maybe America could put pressure on those 
countries which are friendly to the U.S. and see to it that 
they restrain their activity on fanaticism.
    Mr. Meadows. Mr. Asmussen?
    Mr. Asmussen. When it comes to protecting Jewish 
minorities, I believe that the U.S. Government can also put 
political pressure on countries that are not taking these 
threats seriously. There are countries that take these threats 
very seriously and protects the Jewish minorities. There are 
countries that don't. And the political pressure from the 
outside from the United States, I believe, is very crucial.
    There is some pressure by the World Jewish Congress, you 
mentioned Rabbi Andrew Baker, OSCE, and Ira Forman, but the 
U.S. Government can step up this political pressure.
    Mr. Meadows. All right, thank you very much. I am going to 
close with this one story and then yield to the gentleman from 
Minnesota, Mr. Emmer.
    I want to encourage each one of you. Ambassador Lauder, you 
talked about how the narrative during the Gaza conflict was 
one-sided. It was infuriating to me to see headline after 
headline after headline to be--and yet, I had on my phone an 
app that is called Red Alert. Many of you may have that on your 
phone and I got it. I was talking to the Ambassador one day, 
long before the conflict and it had gone on 42 times, I 
believe. This was at 11 o'clock in the morning. It was not 
being mentioned anywhere, no headlines, no nothing. And I asked 
the Ambassador, I said, ``What is that?'' And he said, ``Well, 
it is an app that I have on my phone that is called Red 
Alert.'' I said, ``Boy, I would love to have that, it would at 
least let me know when the missiles are coming in.'' He said, 
``Well, you can have it. The only problem is, it is in 
Hebrew.''
    Well, Hebrew is not a normal language in North Carolina and 
so we actually went to that. And had it translated and so it is 
on a number of Members' phones, a number of people I--I know 
there has been well over 1 million downloads. And so I would 
encourage you as something to be a reminder. Because even as 
recent as January, there were missiles going into Israel and it 
is important that we do that. And so I thank you because we 
have got to change the narrative, Ambassador.
    I am going to recognize the gentleman from Minnesota, Mr. 
Emmer.
    Mr. Emmer. Thank you, Mr. Chair. A couple of questions. I 
will try not to cover old ground. The first one and I think 
what I will do is start with Mr. Cukierman.
    Can you outline for me, briefly, what measures the Jewish 
communities in France are taking for their physical safety 
right now? We have heard testimony and I am aware that there 
are some resources that have been deployed, but what are the 
communities themselves doing to protect themselves?
    Mr. Cukierman. We are first of all an organization which 
the volunteers are protecting the Jewish places, the synagogues 
and Jewish schools mainly. But this has been strongly 
reinforced recently by the government because our protectors 
are not armed. They are just checking that the people who went 
to Jewish places are not suspicious. But this is the main thing 
and we also tried to have organizations which it is not easy to 
enter. We have videos. It is defense. It is not efficient.
    I must say that we are very satisfied of the attitude of 
the French Government in the recent events. I am not generally 
putting compliments to the French Government. I have frequently 
criticized from my past reactions. But in these difficult 
periods, they have been exemplary. The Prime Minister has said 
very strong words like anti-Zionist is anti-Semitism and the 
President said that it is not the Jews who should leave, but it 
is the anti-Semites.
    And the day which followed the January event, we had 
immediately the Army who joined the police to protect Jewish 
places. So we don't have to complain about protection. The 
legislation is a prominent in terms of fighting against anti-
Semitism. For instance, Holocaust denial is a crime in France 
which is not the case in other countries. So the laws are 
satisfactory. The main problem would be education because today 
in public schools Jews are not going any more because the 
atmosphere has become so much anti-Semitic that people prefer 
to pay and go to private schools, either Jewish schools or 
Christian schools, rather than public schools.
    Mr. Emmer. Yes, but then the problem is not being addressed 
apparently in the public schools or is it?
    Mr. Cukierman. Nothing has been done in terms of education 
in public schools in the last 30 years and there we are 
terribly backwards.
    Mr. Emmer. Mr. Asmussen, same question. What are the Jewish 
communities doing in Denmark since the incidents to protect 
themselves?
    Mr. Asmussen. Basically after the attacks in Toulouse and 
Brussels, Brussels was last summer, we contacted the Danish 
Ministry of Justice in order for them to improve security 
around Jewish institutions. Nothing happened. There is 
security. There are roundings in police cars and we have as in 
France, our voluntary security guards within the community. But 
we asked for armed police in front of the synagogue during 
services, in front of the Jewish school when the kids are 
there. We didn't get it. We didn't get it because it was not on 
the menu in Denmark. Denmark is a small, peaceful country. You 
don't have policemen on the street wearing guns. Now we do.
    As in France, it takes people getting killed before they 
get the message. But what we see now, I believe in France and 
in Denmark might not be the long-term solution and basically it 
is too much right now. I have a school of 200 pupils with eight 
policemen with machine guns. It is too much. But I need a long-
term solution on that issue with the government. I don't have 
it at this point.
    So now I say what can I do? I tell you what the government 
can do. But we are trying to put pressure on the government. 
And in the long run, of course, we can participate in 
education, learning about Judaism, of course. We can intensify 
our activities within the interfaith, with Christians, Muslim, 
interfaith activities as we do. But somehow it seems that all 
those interfaith activities seems to be together with the 
people with the politically correct minds, not the people doing 
all the anti-Semitic activities.
    Mr. Emmer. We have a bit of that in this country as well.
    Mr. Lauder, and thank you for that. In Minnesota, the 
chairman referenced the accent. We have a phrase, I don't know 
that I want to open this can of worms, but I think I am going 
to. We are talking about what the Congress might help with, 
what this country might help with, what we could do. What about 
the organization known as the United Nations?
    Ambassador Lauder. It is a joke.
    Mr. Emmer. I am going to open that can of worms. If you 
could just give an idea. Is the United Nations a lost cause 
when it comes to this? Is there something that can be done 
through that organization?
    Ambassador Lauder. Of the 25 recent cases of attacks on 
what should be done in religion, 23 were against Israel. The 
United Nations is perhaps one of the most anti-Israel, anti-
Jewish organizations there.
    Mr. Emmer. Can I ask a question that is very direct? The 
response or lack thereof by the United Nations, does that also 
fuel in your opinion of an increase in anti-Semitism?
    Ambassador Lauder. Everything fuels it. The real question 
is if you have a case where one country, if Canada attacked 
Minnesota with 4,000 rockets and you responded and all of a 
sudden they took Minnesota to the International Criminal Court 
for what you did to protect yourself, how would you feel? And 
the International Criminal Court, I believe, has something to 
do with the United Nations. That is a symbol of what is 
happening.
    And we spoke before about UNRWA and the fact that 
Palestinians are still receiving refugee status where the 
800,000 people who left the Middle East and came to Israel and 
things like that, don't get refugee status. It is a dual 
standard that goes on and on. It is something that I know that 
the committee knows very, very well. The real aspect is this is 
something that has been anti-Semitism since almost right after 
Abraham. It is something that we have seen all the time.
    What has happened recently is that anti-Semitism has 
started to kill people, has started to become radicalization 
and it is one group of people who are doing it and the world is 
turning its back on it and not really necessarily going after 
it.
    Mr. Emmer. And I will be done, Mr. Chair, but I think you 
made the point and it was an artful answer. When everyone----
    Ambassador Lauder. It was a diplomatic answer.
    Mr. Emmer. Very diplomatic answer and I do appreciate it 
and respect it. But if our institutions that are there, I mean 
we are talking about the media on one hand and there is an 
issue with education in sensitivity and awareness. But when the 
very institutions that are created to promote peace and to try 
and help resolve conflict, actually don't do that. In fact, by 
their actions, some could interpret it as fueling the conflict. 
It is not very helpful and I don't know if that is the case, 
but that is what I was asking.
    Ambassador Lauder. That is the case.
    Mr. Emmer. Thank you.
    Mr. Meadows. I thank the gentlemen. I thank each of you for 
your testimony here today. Chairman Smith actually is 
monitoring this, his staff is monitoring it. He has been having 
a few health issues. We will support and actually give some 
questions for each one of you that you can respond in writing 
for the record. I would also ask each of you if you have two 
recommendations on what you would like to see the United States 
to do, if you would just submit that to the committee, we will 
make sure that that gets passed around and we will take action 
on that.
    And so I want to close out by saying there are many times 
when this battle may seem like we are losing the battle and 
indeed many battles have been lost. But ultimately, the victory 
in the war will be ours if we continue to fight arm in arm and 
stand arm in arm together. I for one, and I know a number of my 
colleagues are willing to do that so thank you for your 
testimony. Thank you for being here. God bless. This is 
adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all
</pre></body></html>
